<html>
<title> - EXAMINING VA'S INFORMATION TECHNOLOGY SYSTEMS THAT PROVIDE ECONOMIC OPPORTUNITIES FOR VETERANS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  EXAMINING VA'S INFORMATION TECHNOLOGY SYSTEMS THAT PROVIDE ECONOMIC.
                       OPPORTUNITIES FOR VETERANS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, NOVEMBER 3, 2015

                               __________

                           Serial No. 114-42

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               ___________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-697                         WASHINGTON : 2016                        
                    
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>  
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                       Tuesday, November 3, 2015

                                                                   Page

Examining VA's Information Technology Systems That Provide 
  Economic Opportunities for Veterans............................     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     2

                               WITNESSES

Mr. Davy Leghorn, Assistant Director, National Veterans 
  Employment & Education Division, The American Legion...........     3
    Prepared Statement...........................................    27
Mr. William Hubbard, vice President of Government Affairs, 
  Student Veterans of America....................................     5
    Prepared Statement...........................................    33
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, VBA, U.S. Department of Veterans Affairs..........    16
    Prepared Statement...........................................    41

        Accompanied by:

    Jack Kammerer, Director Vocational Rehabilitation and 
        Employment Service, Veterans Benefits Administration, 
        U.S. Department of Veterans Affairs,

    MG Robert M. Worley II, USAF (Ret.), Director, Education 
        Service, Veterans Benefits Administration, U.S. 
        Department of Veterans Affairs,

        And

    Steven Schliesman, Assistant Deputy Chief Information 
        Officer, Office of Information & Technology, U.S. 
        Department of Veterans Affairs

 
  EXAMINING VA'S INFORMATION TECHNOLOGY SYSTEMS THAT PROVIDE ECONOMIC 
                       OPPORTUNITIES FOR VETERANS

                              ----------                              


                       Tuesday, November 3, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Costello, Radewagen, 
Bost, Takano, and Rice.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Good afternoon, everyone. I want to welcome 
you all to the Subcommittee on Economic Opportunity's hearing 
today entitled Examining VA's Information Technology Systems 
that Provide Economic Opportunities for Veterans. The timely 
and accurate adjudication of the myriad of benefits that VA 
provides to veterans and their dependents is critical to their 
economic success. In order to process these claims effectively, 
VA must have modern IT systems in place that are adaptable and 
highly functional. That is what we are here to discuss today 
and by the end of today's hearing I hope that we all have a 
better understanding of how we can improve VA's IT systems to 
lead to positive economic outcomes for veterans and their 
families.
    I would first like to touch on VA's Long Term Solution, or 
LTS. This system was designed to process and adjudicate Post-9/
11 GI Bill claims with little to no human interaction. While 
great strides have been made since the initial onslaught of 
delayed GI Bill payments back in 2009, I remain concerned that 
improving and finishing the LTS is still not a priority for the 
department and its senior leaders. And while supplemental 
claims have been completed in a more timely fashion it is still 
taking far too long for original claims to be completed.
    With the department moving the LTS into sustainment mode, 
there does not seem to be an appetite to make more improvements 
to the LTS, improvements that are needed, and that is 
disappointing. This committee has moved my legislation that 
would provide an additional $30 million to finish the LTS once 
and for all and I will do all that I can to push it across the 
finish line.
    I do want to discuss for a moment some concerns that our 
witnesses and other individuals have raised about unexpected 
delays in GI Bill payments that occurred this fall. Due to the 
system shortfalls I have been told that in the past the 
Education Service has been granted overtime funding to help 
adjudicate claims for the typically busy fall semester time 
frame. We have been told, however, that this year was different 
and the overtime funding usually given to the Education Service 
was instead repurposed to fund additional overtime to bring 
down the disability claims backlog. This reallocation of money 
and shift in priorities left many schools waiting for tuition 
payments from the VA and left veterans waiting far too long to 
receive their living stipends. And some are still waiting.
    While I know we can all agree that it is a worthy goal to 
bring down the disability claims backlog, it is not acceptable 
to leave another group of veterans waiting instead of coming 
forward with a clear plan to address both situations. It 
appears that the department once again took the misguided view 
that disability claims were more important than education 
claims. This is nothing more than just robbing Peter to pay 
Paul.
    I also want to speak about the Veteran Employment Center, 
or the VEC. This is a job board that was created by the 
department through eBenefits and is now the sole employment 
portal for veterans in the entire federal government. While I 
understand that the VEC was created on a shoestring budget and 
is still being improved, I am concerned that VA may have been 
too hasty in promoting its use and may be inflating its true 
value as well as its functionality. We have been told that this 
program is now being taught at all TAP classes worldwide, but 
due to some possible data security breaches and the inability 
to actually access the system during the TAP sessions some 
senior officials at DoD have threatened to stop teaching the 
use of the VEC altogether.
    I am also concerned that there is no way to track the 
number of jobs or successful outcomes that have come from the 
VEC. And I have even heard rumors that some VA contractors are 
required to log into the VEC everyday to improve page views. 
Finally, we have heard that employers do not want to use the 
VEC as they find the system not to be user friendly and 
ineffective in giving them a true idea of veterans'` skills or 
talents. While I am not saying that the creation of the VEC was 
not done with the best of intentions, I do think the department 
should examine these types of concerns and take immediate 
actions to improve the VEC for veterans of all generations.
    Finally as I have said in previous hearings I am interested 
in learning more about the more paperless case management 
system being developed for tracking VR&E participants. I am 
sure we can all agree that such a system is long overdue.
    With that, I now recognize the Ranking Member Mr. Takano 
for his opening remarks.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. When the Post-9/11 GI 
Bill became law in 2008 it was clear that the array of benefits 
and beneficiaries included were far more complicated than had 
been the case in previous GI Bill laws. It was also clear that 
it was going to take state of the art IT to make it all work in 
a timely and accessible way for student veterans.
    So we are here today to assess how the original plans for 
quick paperless processing and easy access called the Long Term 
Solution, or LTS, have panned out and how we can speed matters 
along from here. It is clear that there have been bumps in the 
road. For example, this fall there were a significant number of 
complaints as student veterans experienced longer delays than 
usual in their receipt of tuition and housing allowance 
payments.
    We also know from a recent GAO report that VA has been 
making overpayments on GI Bill benefits. This problem can arise 
when a student veteran drops classes but VA fails to adjust the 
veteran's status in its IT system. GI Bill overpayments have 
created financial hardships when student veterans learn about 
the overpayments and are asked to pay VA back. My greatest 
concern is that it is difficult enough for veterans 
transitioning from military service to student life without 
having to navigate the additional barriers to graduation that 
these IT problems can create for them. Clearly the demands of 
the Office of Information Technology at VA are huge. Our 
concern today is that the education and employment programs are 
a priority for VA just as the programs of the Veterans Health 
Administration must be.
    In addition to hearing about progress on the LTS and GI 
Bill overpayments, I am looking forward to updates on the 
Veterans Employment Center, or VEC, and its promise of a one-
stop internet source for veterans looking for meaningful 
employment. I will be interested to hear about VA's efforts to 
create a system for the paperless processing of VR&E claims and 
updates to the Post-9/11 GI Bill comparison tool.
    Finally I look forward to the testimony of the Student 
Veterans of America and the American Legion about what their 
members have experienced in these areas. And I appreciate 
Deputy Under Secretary Coy and the others from VA who are all 
working on these challenges.
    Thank you, Mr. Chairman, and I yield back.
    Dr. Wenstrup. Thank you, Mr. Takano. I now invite our first 
panel to the table. With us today we have Mr. Davy Leghorn, 
Assistant Director for the American Legion's National Veterans 
Employment and Education Division; and Mr. Will Hubbard, Vice 
President of Government Affairs for Student Veterans of 
America. Welcome back to both of you and I thank you for being 
here today. Your complete written statements will be made part 
of the hearing record and both of you will be recognized for 
five minutes for your oral statements. So let us begin with 
you, Mr. Leghorn. You are now recognized for five minutes.

                   STATEMENT OF DAVY LEGHORN

    Mr. Leghorn. Improving the information technology used to 
manage VA education and employment benefits is important. It 
can save money and make programs and services run more 
efficiently to the benefit of veterans. However, we must not 
overlook human factors involved in ensuring that veterans get 
the tools and counseling they need to maximize their education 
opportunities and transition into their civilian careers. 
Chairman Wenstrup, Ranking Member Takano, and distinguished 
members of the subcommittee, on behalf of National Commander 
Dale Barnett and the over two million members of the American 
Legion, we thank you for the opportunity to testify on this 
issue.
    As part of VA's efforts to improve Post-9/11 GI Bill claims 
processing, the automated Long Term Solution was implemented 
with the intention of having the time it takes to process 
benefit payments. In theory it is supposed to take human claims 
processors out of the equation using computer systems to 
process claims. However, VA's IT systems have not yet automated 
all original and supplemental claims. Due to time limitations 
and prioritization of effort VA has focused on automating the 
supplemental claims but not even all the supplemental claims 
have been automated at this point. It is clear that VA requires 
additional funding to enhance LTS with the functionality to 
process all original and supplemental claims with little human 
intervention.
    In March of this year the American Legion supported 
legislation that would mandate that VA complete the transition 
to a full IT solution. A newly released GAO report further 
demonstrates room for improvement with VA IT. The report shows 
that VA is overpaying schools and veterans when Post 9/11 GI 
Bill users drop a class or leave school. The process that VA 
uses for addressing overpayments should be improved. This would 
create more certainty for student veterans and also help VA 
become better stewards of taxpayer dollars. The American Legion 
therefore encourages Congress to authorize and appropriate the 
necessary resources for IT solutions which would reduce the 
labor intensive nature of these tasks and reduce the burden for 
repaying overpayments which falls disproportionately on 
veterans.
    With regards to VA's Veterans Employment Center, the 
American Legion believes there is a great potential in this one 
stop veterans employment platform. While continued IT 
improvements with online applications are encouraged we should 
not ignore the VA employment specialists and coordinators who 
work directly with veterans. We believe that the best thing we 
can do for the VEC is to build and improve the services around 
it. VA is the focal point of veterans programs and services so 
the consolidation of the Homeless Veterans Reintegration 
Program and Jobs for Veterans state grants funding and services 
under VA's Office of Economic Opportunities simply makes sense. 
Therefore we reiterate our support for Chairman Miller's Jobs 
for Veterans Act of 2015.
    Finally the American Legion does not oppose VA moving ahead 
to a paperless case management system for vocational 
rehabilitation and employment programs as they have done for 
disability claims with the Veterans Benefits Management System. 
However, we hope that problems that have plagued VA's previous 
attempts to go paperless will not plague any such effort. The 
American Legion understands that rehabilitation counselors' 
caseloads have increased dramatically as a result of better 
marketing of VR&E services and the influx of service disabled 
veterans over the last decade. We believe that the most 
effective way of decreasing the caseload assigned to each 
rehabilitation counselor is by hiring more counselors. We 
recognize that hiring additional full time counselors may not 
be the most cost effective option, so alternatively VA might 
want to consider contracting out for employment and 
rehabilitation counselors until the caseloads can be brought 
down to a manageable level for VA counselors.
    In summary, by improving the operations of the LTS VA can 
help process the education benefits more efficiently and reduce 
unnecessary processes that create debt problems for both the 
government and veterans pursuing their education. More 
attention to the functionality of the VEC can give both 
veterans and employers better tools to match capable veterans 
to the jobs they need. However, we must not forget the 
importance of the human factor and the need for employment 
counselors and specialists who can get veterans on the right 
track and avoid letting them slip through the cracks.
    As always, the American Legion thanks this committee for 
the opportunity to offer testimony and I look forward to any 
questions you may have.

    [The prepared statement of Davy Leghorn appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Leghorn. Mr. Hubbard, you are 
now recognized for five minutes.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Thank you, Mr. Chairman. Chairman Wenstrup, 
Ranking Member Takano, and members of the subcommittee, thank 
you for inviting Student Veterans of America to submit our 
testimony on examining VA's information technology systems that 
provide economic opportunity for veterans. With over 1,200 
chapters across the country we are pleased to share the 
perspective of those most directly impacted by this committee 
here today. In this testimony we will address the Veterans 
Employment Center, or VEC, platform, and processing delays we 
saw with the student veterans headed to school this fall. We 
look forward to working with the Department of Veterans Affairs 
and this committee on these issues.
    The VEC is the federal government's most recent response to 
unemployment among veteran populations. There are multiple 
positive aspects of the VEC which we would like to highlight. 
Notably, we applaud the intent to create a consolidated 
program. Also, the demonstration of real and impactful public-
private partnerships is worth highlighting, especially the 
partnership with LinkedIn. While we note the positives and the 
potential of the VEC, we maintain concerns over several aspects 
of the program's operation.
    First, we hope to see user adoption addressed in the coming 
months. The number of veteran profiles on the site is the true 
incentive for employer participation in the platform. 
Similarly, we believe employer participation is hampered by the 
platform's interface, which is not as intuitive or user 
friendly as we would hope to see in the future.
    Second, it is clear that data tracking and the outcomes of 
the VEC are not presently available. Since the tool is meant to 
connect veterans with employers we would hope to see VA address 
outcome tracking related to hires resulting from connections 
through the platform, as well as employee retention data.
    Third, discussions with potential site users demonstrated a 
desire to have a live coordinator or advisor to connect with. 
In particular we would like to see the functionality included 
to allow case managers to access profiles and the progress of 
military members and veterans in their portfolio.
    In the process of reviewing the VEC there were some 
questions that we believe merit further discussion. These 
include how many hires have come from result of the VEC? How 
are job commitments by employers being translated into local 
jobs for veterans? What is the funding stream? What can be done 
to make the platform accessible to other browsers in addition 
to Internet Explorer? What is currently being done to make the 
tool mobile accessible?
    We are highly appreciative of VA's commitment to supporting 
veterans in multiple aspects of their lives. The VBA has 
largely demonstrated the will and commitment that we believe is 
required to support veterans properly. We hope to see this will 
translate into future updates with the VEC so the intent and 
the mission of the program is fully achieved.
    Turning to GI Bill processing issues, this fall highlighted 
several challenges that directly impacted student veterans. In 
early September significant delays in the processing of GI Bill 
benefits became an obvious concern. The impact of these delays 
is tangible and unfortunately very real. One of our own chapter 
presidents shared, I had one student vet surviving on his GI 
Bill by living in a storage unit and sometimes sleeping in the 
library. Ultimately the core challenge remains the VA's 
reliance on overtime hours for full time employees during the 
peak periods of the fall and spring enrollment. Under a unique 
solution with the National Student Clearinghouse, VA and 
taxpayers incurred no additional cost since schools select to 
send the data through NSC, paying for the cost of the service, 
while VA benefits from streamlined data submissions and 
research capabilities in conjunction with the Department of 
Education data is made available. This all with the added 
benefit of real time measurement of completions and program 
efficacy. We are happy to discuss this concept in more detail.
    We understand there is ongoing discussion of a solution 
within VA and believe that the NSC proposal should be 
considered for incorporation, or as an advisory role.
    On a separate note I would like to make mention that we 
recently signed the agreement with the VA and the NSC to pursue 
follow on research to the Million Records Project. I look 
forward to keeping this committee updated on the progress.
    We thank the committee for this opportunity to testify on 
these important issues and we look forward to working with this 
committee and its members for any questions they may have.

    [The prepared statement of William Hubbard appears in the 
Appendix]

    Dr. Wenstrup. Well I thank you both for your testimony. And 
I now yield myself five minutes for questions. I also want to 
applaud the work that you are doing to try and cooperate with 
the VA and to try and make things better and to come forth with 
solutions. So the first question I have for both of you is were 
either of your organizations consulted by the VA during the 
development of the VEC? And was your feedback sought? Were you 
able to engage and give some feedback for those trying to 
engage in the VEC? Mr. Leghorn, you can go first.
    Mr. Leghorn. Chairman Wenstrup, the American Legion was 
consulted when they created VEC. I believe VA brought the major 
VSOs into a room after their first or second beta testing and 
they asked for our feedback, and also to give us a briefing on 
it. One of our suggestions that we saw that they did implement 
was that we wanted it to be simple. You know, instead of 
building the next Career Builder, or you know, whatever job 
search employer website, we wanted something that would be 
really easy to navigate and I believe what we have now is 
something that is rather bare bones and really easy for the 
veterans to navigate at least.
    Mr. Hubbard. From our end, Mr. Chairman, I do not recall 
being consulted. But I do think that the plans that we have 
with VA currently to set up a demonstration presents the will 
and interest to making sure that this tool is working properly.
    Dr. Wenstrup. I think that is valuable and I appreciate it 
on both ends. Can you give me maybe some idea or of a type of 
metric that you think should be used for tracking the VEC's 
success or finding its flaws?
    Mr. Hubbard. I will take that, Mr. Chairman. So I believe 
that both hiring rates and then also retention rates are two 
key indicators that should be looked at. As a tool that is 
allowing for veterans to find employment, the ultimate outcome 
being employment, understanding what those hiring practices 
are, what the numbers look like, and then also on the retention 
side with those employers I think it would be valuable.
    Dr. Wenstrup. Yes, Mr. Leghorn.
    Mr. Leghorn. So much like what Will just said, two things 
that we noticed were severely lacking have always been 
performance metrics and retention statistics. Most of what we 
have right now are mostly anecdotal. And HR does not usually 
track things like how long a veteran currently stays at a job 
compared to their civilian counterpart. The VEC is a great 
platform to start convincing HR in government and the private 
sector to start collecting this information.
    Dr. Wenstrup. Yes, I would agree with you on that. I think 
really what you want to do is not only have someone find a job 
but be able to stay in a job. And to make sure that we are 
getting the right matches, if you will, and really knowing what 
your long term results are. So obviously there has to be a 
continuity of contact with the veteran. And I think that that 
is one of the metrics, obviously, that needs to be employed for 
that to work.
    Let me ask you both, too, what are you learning from 
students nationwide? Are some students still waiting to receive 
their housing stipend, and some schools waiting to receive 
their tuition? What are you hearing on that front?
    Mr. Hubbard. So Mr. Chairman on that front we are hearing 
that the delays have persisted but are decreasing. I have not 
heard new cases of delays. To my knowledge the VA did submit 
for overtime to address the backlog that was presented and 
became obvious in September. I have not heard new cases and I 
do appreciate them taking the time to address that issue 
clearly and publicly.
    Dr. Wenstrup. Mr. Leghorn.
    Mr. Leghorn. Chairman Wenstrup, I am not the who handles 
education issues for the American Legion so I will have to take 
that question for the record.
    Dr. Wenstrup. Okay. I appreciate that. I guess the next 
question I have is what could we do, what are your suggestions 
on making this more user friendly? And I think you touched on 
that a little bit. But if you guys could share, either one of 
you or both of you, what suggestions you might have to make it 
more user friendly and more accessible, the VEC system?
    Mr. Hubbard. So I think what would be helpful first off is 
some type of mobile platform. We know that currently student 
veterans are a highly mobile population and oftentimes are 
quite connected to technology. So having that as a 
functionality would be helpful. But beyond that I think 
actually what would be more supportive is to have the ability 
for a case manager to be able to access profiles and track 
individuals that they are working with. If they have 
individuals in their portfolio, members of the military or 
veterans, to be able to look and see the employers that they 
are connecting with, how those interactions are going, and what 
the results are I think would allow for them to give tailored 
feedback and provide good advice on that search.
    Mr. Leghorn. So one of the things that we have heard from 
employers is that they are being asked by too many competing 
job search platforms to look for employees on their Web site. 
And this is a problem because VEC is a newcomer and if an 
employer hops on a site and the search and navigation function 
is not readily intuitive, HR is going to revert to using a 
platform that they are familiar with and they have been using 
already. When companies think about hiring veterans they 
usually flock to DoD programs because in their mind they are 
thinking about transitioning veterans. And VEC really needs 
more market share in the veterans hiring arena to let the 
companies know that they have access to an even larger pool of 
veterans and spouses on the website than compared to some of 
the DoD programs.
    Dr. Wenstrup. Well thank you very much, both of you. And I 
now recognize the ranking member for his questions.
    Mr. Takano. Thank you, Mr. Chairman. Gentlemen, I am going 
to focus my first question, or questions, on the GI Bill 
comparison tool. Here is where I am coming from. I was 
impressed two years ago when I visited the community college 
veterans center in my district at Riverside Community College. 
The veterans there seemed to have a great awareness of 
conserving their benefits. We have a low cost community college 
system in California, which allows veterans to conserve their 
benefits for graduate school. And I thought, gee, they are 
really being taught a very sophisticated strategy and how to 
use the generous GI benefits we have under the Post-9/11 Bill.
    So community colleges in my mind offer students, you know, 
a really good opportunity, especially in California, to combine 
low cost with curricular options that allow them to complete 
associates degrees, certificates, and a transfer to four-year 
schools. In your opinion does the current GI Bill comparison 
tool present community colleges as a favorable option for 
veterans compared to four-year nonprofit schools or for profit 
schools? Either one of you, if you care to.
    Mr. Hubbard. Thank you for your question, sir. I think it 
does ultimately provide a pretty uniform and even look at 
different schools across different sectors and different 
levels. I think ultimately though it can sometimes be a little 
deceiving because in some cases an individual will look down at 
the section that shows if the school is POE compliant, if they 
have signed on to the various veteran supporting networks. And 
I think at times that provides maybe an unfair view of what the 
school actually supports.
    What I always recommend for individuals to do as they are 
considering school is to reach out to the Student Veterans of 
America chapter on campus and to talk to the veterans who are 
right on the campus and get a very clear view of what they 
might do. I think that has been always a beneficial avenue for 
them to find out information. And if you go on to the tool as 
it stands there is a line on there that allows for individuals 
to see if there is a student veteran group on campus. If there 
is, they can go directly to the home page through the 
comparison tool which I think is highly beneficial.
    Mr. Takano. You know, recently I was interacting with a 
veteran over the telephone. I often go to my office and call 
constituents who have written into us about a certain challenge 
they are having. This particular veteran needed an advocate, 
and he was on VR&E. He was financing his education through 
VR&E. And his counselor just did not have the time to be the 
advocate. He has a full caseload. And this particular veteran 
who I am thinking of had also some issues with PTS and 
contributed to part of his challenge on campus.
    So I was interested to hear Mr. Leghorn talk about this 
concern about the goal of complete automation as opposed to 
also paying attention to hiring counselors. So my question, if 
you could explain this, we also had a great hearing last week 
we brought in a young man from Nebraska who was talking about 
the VSOC program. And I was surprised to learn that VSOC 
counselors also have a VR&E caseload, which to me means that 
they have little time to also address the wider veterans 
community that are not necessarily on VR&E but also need, you 
know, counseling advice. So I will just turn it over to either 
one of you to respond.
    Mr. Leghorn. Okay. So with regards to full automation, what 
we were talking about was with the GI Bill it is one of those 
benefits where if you, depending on your dates of service you 
either have it or you do not. So triaging something like that 
can be fully automated with minimum human interaction. With 
regards to the high touch counseling services, what we were 
talking about was building that around the VEC. It is great to 
have that platform but we need to have the counselors and the 
specialists there to work with the people after they have 
created a profile on the VEC, and the same thing with the VR&E. 
You know, obviously that is a place where you really need 
intensive employment counseling.
    Mr. Takano. Great. Thank you. Mr. Chairman, I yield back.
    Dr. Wenstrup. Mr. Bost, you are now recognized for five 
minutes.
    Mr. Bost. Thank you, Mr. Chairman. Mr. Leghorn, can you go 
into a little more detail maybe about the type of feedback you 
have been getting from HR departments for larger employers on 
the effectiveness of the VEC?
    Mr. Leghorn. On top of what I said earlier, another issue 
that they have had was with the skills translator. Skills 
translators are supposed to crank out autogenerated civilian 
skills for the resume and that is what they are supposed to do. 
We cannot really change that. But for the HR personnel in these 
big companies what they find is that it is practically useless 
if it is put on a resume. Because they still have to devote 
time to calling the applicant and asking them what you did in 
service and what have you accomplished. And then the onus is 
really on the user to take the autotext that they get from the 
skills translator to paraphrase them into a narrative that 
reflects their time in service. Because they told us that a 
resume with generic bullet points that are obviously ripped 
from the website quickly finds its way into the trash bin.
    Mr. Bost. Okay. Do you, and this is for both of you, do you 
believe that maybe the VEC was rolled out too fast? Maybe not 
ready for prime time?
    Mr. Hubbard. Sir, thank you for your question, sir. I think 
that ultimately there were over the last several years a lot of 
tools that have come out. Obviously veterans employment is a 
hot topic, a topic of priority for the American public as it 
should be. And with the interest in engaging in a comprehensive 
tool such as the VEC, I think ultimately a lot of the previous 
tools that maybe had been working, Hero to Hired is a good 
example of something that had been working, which incorporated, 
as my colleague pointed out, that high touch capacity, the 
ability for case managers to be involved directly. I think a 
lot of those functions were not necessarily incorporated into 
the current version. Which is not to say that they still could 
not be. In my conversations with individuals at the VA, they 
have expressed an interest in improving the tool which we are 
very interested in working with them on.
    Mr. Leghorn. Sir looking back I would say that yes, it was 
rolled out too fast. Because, you know, the success of the VEC 
really comes from the cache of resumes and profiles that you 
had in there. I think in the beginning we should have rolled it 
out to the transitioning servicemembers and veterans first to 
build up an ample cache of resumes and profiles before we fine-
tuned it and turned it over to the large employers.
    Mr. Bost. Yes, you know as I listen to this and listen to 
the fact that, great idea, would both of you agree with that? 
It is a great idea and it is trying to move ourselves into the 
future to make sure that we can get them hired as fast as 
possible and use technology to the best of our ability, 
correct? And I guess that the thing I see here is some things, 
no matter how much they change, are still the same. I am not 
going to try to date myself here but the month I went into the 
Marine Corps, the month before was when they stopped paying 
with cash on the parade decks all around the United States and 
world. And the next month was when they started paying with 
checks and all of a sudden many of us got no pay due. Because 
they rolled the system out very, very quickly and we want to 
move forward into the future but quite often we are not 
necessarily ready to do everything we are supposed to do. Do 
you see the opportunity for us to get this correct?
    Mr. Hubbard. Sir, I think there is an opportunity and I 
think the VA is trying to do that. In the conversations we have 
had it is clear that there is that intent to make sure that 
this tool is functioning properly. I do not think it is there 
yet.
    Mr. Leghorn. Sir, we absolutely think the VA is on the 
right track here. If we compared it to its predecessor, My Next 
Move for Veterans, I mean this platform has garnered more 
recognition than its predecessor ever did. So.
    Mr. Bost. Well I know this committee appreciates your 
input. And hopefully we can work to try to work with them to 
improve it to where it works the way it is supposed to. And 
with that, Mr. Chairman, I yield back.
    Dr. Wenstrup. Thank you. Ms. Rice, you are now recognized 
for five minutes.
    Mr. Bost. Thank you, Mr. Chairman. So it seems to me that 
the veterans who are most in need of the services of the VR&E 
are those who are either unemployed or homeless or both. My 
question is how do we, what is the outreach to those veterans?
    Mr. Hubbard. Ma'am, if I could address this? I actually 
believe that what the VA has set up in the VSOC program, as the 
ranking member pointed out, is the right approach. The tools 
that they have set up with the VSOC program allows counselors 
to reach out directly to individuals but not just leave them. 
It allows them to work with them and understand their case and 
work effectively. So I think that is what needs to happen more 
broadly. It is not necessarily happening now and I think as a 
result some individuals are slipping through the cracks and 
individuals who do need more attention are getting less. So I 
think by taking that model of the VSOC program and applying it 
more broadly, I think some of that can be addressed.
    Ms. Rice. So why has that not been done?
    Mr. Hubbard. I would defer to my colleagues from the VA on 
the next panel.
    Mr. Bost. So in the instance where a veteran who is going 
to classes on the GI Bill either withdraws or drops out, 
withdraws from a class or drops out of the semester, how is 
that information communicated to VA? And in terms of to prevent 
the overpayment situation that we were talking about before, 
number one? And number two, is that a red flag for the VA to 
ensure that some counselor, the veteran is contacted by a 
counselor to see what is going on, what might be going on that 
is causing the withdrawal or, you know, the problems with 
continuing in school?
    Mr. Hubbard. Ma'am, I think this is a great question. To 
give you some idea of why some of that might be the case, I 
think it is important to understand the current process of how 
the payments are being made.
    The way that things are working and the way the data is 
being reported right now, if you understand on one side you 
have schools and on the other side you have the Department of 
Defense, you have the Department of Education, the VA. Right 
now those schools are independently reporting to these 
different departments, just to name a few. So in the----
    Mr. Bost. What do you mean independently reporting? They--
--
    Mr. Hubbard. So the schools currently, the Department of 
Defense asks certain questions of the schools for tuition 
assistance, for example. Department of Education has their own 
questions regarding Pell Grants, for example. And then the VA 
has their own questions regarding veterans benefits and the GI 
Bill. But right now the way the process works is the schools 
get essentially for lack of a better term surveys from the 
different departments and agencies and they are expected to 
reply differently. About 70 percent of the data that is being 
asked, name, social security number, program of study, is all 
the same. So right now these schools are being asked to reply 
to all of these different departments and agencies with a lot 
of the same information but some different. As a result it 
should not be a surprise that in this flow of data that some 
things come up missing. So with the proposal that we have 
addressed with the VA and we look forward to sharing with you 
in more detail, we think that this process can be streamlined 
through a single auditing agency that would allow compliance to 
be ensured but also to make sure that the data is clean, clear, 
and efficient.
    Mr. Bost. And how does that get implemented?
    Mr. Hubbard. That is something that we are working with our 
colleagues at the VA on discussing and we would be happy to 
share more details with you.
    Mr. Bost. So is it, can you tell us if they are open to 
that? I mean, it seems like a pretty common sense solution to 
at least consolidate all of the relevant information so that 
people do not fall through the cracks.
    Mr. Hubbard. In our conversations they have been very 
interested and I definitely applaud the VA for being open to 
new solutions that, you know, could potentially offer good 
support to student veterans, but really all students for that 
matter. Presently this process is being implemented with the 
Department of Education so the model is there. I think there is 
a lot to be learned from that.
    Mr. Bost. So what is being done for the veteran in the 
situation where they withdrew from a class or a semester and 
the bills are still being paid, and now they have to, they are 
responsible for them? What is being done to help that veteran?
    Mr. Hubbard. In that case, that individual, the onus would 
be on them to ensure that they understand that the money that 
comes in for example, and you know the GAO came out with a 
fantastic report on these overpayments that I am sure you are 
referencing. In that scenario the individual would see the 
money to their account. What needs to be communicated to those 
individuals is that that money is not, is not necessarily for 
them to spend. It is the result of a change that has not hit 
the system yet. I do not think that that message is being 
communicated effectively, which is why I believe you have seen 
in many cases some overpayments.
    Mr. Bost. So they are just seeing the money come in and 
they are assuming that it is theirs, and that the withdrawal 
has already been communicated? And they are spending that 
money?
    Mr. Hubbard. Right. And I think the Department of Defense 
actually has a great example of what a solution to this might 
be. When they have the Leave and Earning Statement, the LES, 
they are provided on a monthly basis, an itemized breakdown of 
what money is coming in and what it is for. In such an example, 
if there was a mistake or an overpayment that was made, the 
individual could more readily identify that versus a lump sum 
payment to their account which is not clearly indicated what it 
is for.
    Mr. Bost. So you two are obviously very impressive. But 
obviously the concern of this committee is how do we make 
things easier? It is like everyone's experience with their 
local DMV. I mean, you know, you would sooner bang your head 
against a concrete wall than go to the Department of Motor 
Vehicles. I mean, maybe I am, does everyone agree? And the 
veteran process, whether it is trying to get employment or 
access your GI benefits, should not be an exercise of banging 
their head against a wall and making them be the ones that jump 
through hoops. So I thank both of you and thank you for your 
ideas on how to make this a better experience for the veteran. 
Thank you, Mr. Chairman.
    Dr. Wenstrup. Mr. Costello, you are now recognized for five 
minutes.
    Mr. Costello. Thank you, Mr. Chairman, and Mr. Hubbard, and 
Mr. Leghorn, thank you for your service to our country, and 
also thank you for testifying and your very substantive memos 
which I had the opportunity to review. And first, as for Mr. 
Leghorn, I think you did a very nice job of sort of outlining a 
lot of the technological challenges that we have, as well as 
some of the opportunities there. And you did point to VEC as 
some of the concerns that you have. And I think Mr. Hubbard you 
delved very deeply into specifically what some of the, whether 
we call them problems or challenges, but really some of the 
opportunities as to how VEC can be improved. And I looked a 
little bit further on with the VA testimony to come on VEC. And 
I am a little concerned about whether or not your suggestions 
are going to be implemented or what the status of what some of 
your proposals are. The automatically saving profile, you know, 
some of the stuff I think is really basic. But I think the more 
serious issues that really need to happen, and I am asking for 
your feedback, it does not seem as though veterans are using 
the site as much as they should. It really does not feel, 
leaving aside the LinkedIn partnership, it does not really seem 
from what I am reading that employers are using the site. And 
that is of concern because it is there to help veterans become 
employed. In fact, the questions that you asked many of them 
really suggest that it is not being used for what it should be 
used for, or at least we are not even able to evaluate whether 
or not that it is successful. It is a portal. It is there. But 
is it working? And so my question to you is what has been your 
interaction with the VA? Have they been responsive to some of 
your suggestions or other suggestions out there? And where do 
you think we go from here in order to improve it? Because I 
gleaned from your testimony that it is good, it is worth 
preserving, but we need to make it a lot better than what it is 
in order to have it accomplish the purpose for which it was 
intended.
    Mr. Leghorn. So the success of the VEC is based off of how 
many veterans are going to use it, or are using it. And the 
best way to do that is success stories. We mention in our 
testimony that we have not had a single case where a veteran 
was preemptively contacted by an employer for an interview for 
a job, or anything like that. And I think that is what the 
platform was made for. You know? So if we could only get the 
employers to preemptively use the platform and reach out to a 
veteran, that is how we are going to get the success stories to 
sell the VEC to more veterans and get more utilization.
    Mr. Costello. Let me ask you this, then. Particularly on 
the issue of public-private partnerships, we have a shortage of 
truckers in this country. In my state the natural gas industry 
is going to be employing a lot more people in the years to 
come. From a public-private partnership perspective, getting 
certain industries where there is in demand employment 
opportunities to become more acclimated to VEC so that it is 
much employer driven as it is veteran driven, do you have any 
thoughts on making it, I mean, you seem to suggest though the 
demonstration of real and impactful public-private partnerships 
is worth considering. How should we consider that? How could we 
make it better by involving private industry more?
    Mr. Leghorn. The most obvious point of contact is obviously 
with TAP program at the point where the veteran is 
transitioning out from military service. I think if there is a 
place for the private sector to engage veterans to let them 
know what is out there, and what fields are direly in need of 
workers----
    Mr. Costello. And you would agree that that is not 
happening right now, but that should be happening? And if that 
were to happen, then the VEC program would be markedly 
improved, right?
    Mr. Leghorn. Correct.
    Mr. Costello. My time is expired. Thank you.
    Dr. Wenstrup. Ms. Radewagen, you are now recognized for 
five minutes.
    Ms. Radewagen. Thank you, Mr. Chairman, and Ranking Member 
Takano. Gentlemen, thank you very much for your testimony 
today. Thank you for your service to our nation.
    Mr. Hubbard, would you please explain why you believe a 
partnership between VA and the National Student Clearinghouse 
could improve GI Bill processing times?
    Mr. Hubbard. Thank you for the question, ma'am. Absolutely. 
So as I pointed out previously, the current process, you see 
the schools going to the different departments and agencies. To 
your question what we are proposing with our partner in 
National Student Clearinghouse is that schools would go 
directly through this centralized organization and then to the 
different departments and agencies. What this process allows is 
for the National Student Clearinghouse, who already collects 
97.7 percent of all higher education data regarding 
completions, time to degree, and a various other host of 
information, what they can do is then understand what is going 
on on the ground, complement that with their research, use what 
they are getting from the Department of Education, the 
Department of VA, and the Department of Defense, in a 
combination to understand what they can do to improve. That 
streamlined authority would allow them to clean the data for 
compliance. If issues come up where the data is coming across 
and it is either fractured or they need to change something, 
they can turn that around much quicker and they do not rely on 
a paper-based system to inform veterans of mistakes, thereby 
allowing them to turn it around quite quickly.
    Ms. Radewagen. Thank you. I have a couple of little 
questions for Mr. Leghorn. Can you please go into more detail 
about how a small investment in improving the system that 
certifies monthly enrollment for GI Bill users could save VA 
money in the end?
    Mr. Leghorn. Ma'am, again, I am not the person that handles 
education issues for the American Legion. So if I could take 
that question for the record I could get you a better answer.
    Ms. Radewagen. Thank you. Here is another one. Please 
expand on your statement that VA and Labor must not lose sight 
of the human factor when it comes to these IT systems. How is 
that?
    Mr. Leghorn. Okay. So thank you for your question. And the 
point of IT is to automate simple tasks. And what we found in 
the past was a veteran would usually come into a one-stop 
center and in the very beginning they were being triaged by 
DVOPs or LVERs. And then they thought, well, if we put an admin 
assistant there to triage the veterans we free up the DVOPs and 
LVERs to do their jobs. And then we are getting to the point 
where what we are seeing is in order to free up the 
secretaries' time they are using IT to triage the veterans by a 
website or the phone system. And but let us say you are dealing 
with a veteran that has great distrust in the VA, reluctant to 
seek government services, and the first contact they, or the 
first interpersonal transaction they have with the Department 
of Labor at the state level or VA is a machine. That is going 
to deter them from seeking more services. And that is what the 
American Legion is afraid will happen as we go forth and 
automate more and more functions.
    Ms. Radewagen. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Dr. Wenstrup. Well if there are no further questions you 
gentlemen are excused and thank you for being here today, and I 
appreciate your service.
    I will call up our second and final panel to the witness 
table.
    With us today is Mr. Curt Coy, the Deputy Under Secretary 
for Economic Opportunity for the Veterans Benefits 
Administration of VA. He is accompanied by General Rob Worley, 
Director of VA's Education Service; Mr. Jack Kammerer, Director 
of VA's Vocational Rehabilitation and Employment Service; and 
Mr. Steven Schliesman, Assistant Deputy Chief Information 
Officer for VA's Office of Information and Technology.
    Welcome back, Mr. Coy, General Worley, Mr. Kammerer. And 
it's nice to have you with us here today, Mr. Schliesman.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
 OPPORTUNITY VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
  OF VETERANS AFFAIRS. ACCOMPANIED BY JACK KAMMERER, DIRECTOR 
  VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICE, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   MG ROBERT M. WORLEY II, USAF (RET.), DIRECTOR, EDUCATION 
 SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; STEVEN SCHLIESMAN, ASSISTANT DEPUTY CHIEF 
 INFORMATION OFFICER, OFFICE OF INFORMATION & TECHNOLOGY, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Chairman Wenstrup, Ranking Member Takano, members 
of the subcommittee, thank you for inviting me to appear before 
you today to discuss the Office of the Economic Opportunity IT 
capabilities. I am accompanied today by my colleagues Rob 
Worley, Jack Kammerer and Steven Schliesman.
    It has certainly been a very busy and challenging several 
years and we are proud to report to the committee several 
success stories. When the Post-9/11 GI Bill was established in 
2008, we immediately began the process of developing a long-
term solution for education claims processing. Perhaps the most 
significant enhancement was in September, 2012, when end-to-end 
automation was successfully activated. Since that deployment, 
over 6,000 claims a day are processed without any human 
intervention. The last fiscal year, 52 percent of all Post-9/11 
GI Bill supplemental claims were fully automated with another 
35 percent partially automated.
    This automation has significantly reduced education claims 
processing times from an average of 17 to 7 days for 
supplemental claims and 31 to 18 days for original claims. We 
have also maintained a payment accuracy rate of 99.4 percent.
    The GI Bill Comparison Tool was internally developed and 
deployed in February, 2014, allowing prospective students to 
compare educational institutions using a number of measures and 
attributes, helping veterans be better informed consumers. As 
of this month, 1.2 million unique visitors have accessed the 
tool. We are working on the next release of the tool prior to 
Veterans Day this year, which will add even more functionality.
    We also developed and launched the GI Bill Feedback System, 
a centralized online reporting system that allows students to 
report their experiences with educational institutions. 
Depending on the nature of the feedback, VA may also serve as 
an intermediary between the student and the school, or VA may 
launch a targeted risk-based review of the school.
    We began accepting complaints in January of 2014 and as of 
this month there are over 4500 complaints submitted, of which 
3700 have already been resolved.
    Finally, as a result of market surveys, VA deployed an 
online assessment tool called Career Scope that allows users to 
assess their interests and aptitudes before using the GI Bill. 
As of last month, over 16,000 have already initiated 
assessments in Career Scope.
    Certainly not to be outdone by their education colleagues, 
our VRE team is working on several enhancements. Perhaps the 
most significant is a new VRE case management system, a 
veterans-centered paperless service delivery tool. When 
delivered by our OIT colleagues, it is expected that VRE will 
be able to support veterans and reduce the administrative 
burden on their counselors. The total two-year IT development 
effort that began this September is the total funding of $9.7 
million.
    Leveraging an existing VHA system, VRE has also developed 
an online electronic medical referral process, eliminating a 
cumbersome, paper-based system. Since its release eight months 
ago, VRE has successfully referred over 1900 veterans to VHA 
for medical services.
    This year, VRE also rolled out its Telecounseling Pilot 
Program in March. This provides secure video conferencing to 
enable VRE counselors to remotely meet with and counsel 
veterans. Although this is in its initial phase, it has 
significant potential to increase VRE's responsiveness to 
veterans' needs, reduce travel costs and time for veterans.
    VA, Defense, Labor, Education, SBA and OPM collaborated to 
design and develop the Veterans Employment Center. With its 
inception, the VEC consolidated several government sites, 
bringing together job opportunities and allowing users to build 
an online profile that can be shared in real time. We also have 
a job bank that provides over 2.2 million jobs.
    The VEC also integrates and promotes our public-private 
partnerships by linking a broad set of resources, programs and 
services offered by VA-partner organizations. As of this 
summer, the site has grown to nearly 1.5 million page views by 
approximately 135,000 users each month. We continue to improve 
the VEC thanks in large part to the support of DOL, DoD, and 
our public-private partners.
    Interestingly, the VEC and the GI Bill Comparison Tool were 
built using a VA in-house digital services resources, a world-
class team of talent from firms like Amazon and Google. As I 
have mentioned, it has been a busy time working to 
strategically leverage the best in IT, implementing legislative 
changes, and looking to help veterans attain personal and 
economic success, our core mission in the Office of Economic 
Opportunity.
    Mr. Chairman, this concludes my statement, and we would be 
pleased to answer any questions from you or other members of 
the subcommittee, sir.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Coy, for your testimony, 
and I now yield myself five minutes for questions.
    The first question is, we have heard that there was a 
significant increase in processing delays for Post 9/11 GI Bill 
benefits after there was a decision by former Undersecretary 
Hickey to shift overtime funding that was originally allocated 
for education staff to instead fund mandatory overtime to bring 
down the compensation claims backlog, so VA can meet its self-
imposed date; is this true?
    Mr. Coy. Yes, sir.
    Dr. Wenstrup. Do you find this to be true? You do find it 
to be true. Thank you.
    Mr. Coy. I would be happy to explain more by----
    Dr. Wenstrup. Sure, please.
    Mr. Coy. We generally allocate, in recent years it has been 
about $6 million for overtime. We basically split that in half, 
half for the spring semester, half for the fall semester. We do 
this so we don't have to hire more staff to cover those peak 
periods and so it sort of levels things out. This past year, we 
spent the $3 million in the spring semester and processing 
times were just fine. Coming up this fall, around April, May, 
June time frame, the decision was made that we had our $3 
million left for the fall, that 2 million of that $3 million 
would be recouped. They did that and in fact processing times 
began to get delayed. Some time in September, we received an 
additional $500,000, but that wasn't enough to be able to keep 
us from getting back on track.
    So the bottom line is, is we had at peak about 155,000 
claims that we were behind in, right now we have an inventory 
of about 43,000 claims. In prior years--this is now after the 
automation of supplemental claims--in prior years, that high 
was around 95,000. So you can see that we exceeded that.
    Dr. Wenstrup. So what would you suggest going forward?
    Mr. Coy. I would suggest that hopefully this was a one-time 
anomaly, because much of the claims backlog is down, and so I 
don't anticipate this happening again.
    Dr. Wenstrup. Thank you. We heard rumors that since VA 
can't truly track how many veterans actually use the VEC, there 
is potential that a large amount of the site visits are being 
done by automation and not actual individuals. Have you found 
that to be true? Can you comment on that?
    Mr. Coy. I'm sorry, comment on?
    Dr. Wenstrup. Well, that there are a lot of the visits to 
the sites being done by automation rather than actual 
individuals checking into the site.
    Mr. Coy. I don't have any evidence of that, Mr. Chairman. 
We have seen the VEC usage grow over the course of time. Part 
of that is, is you heard some of the testimony from our VSA and 
Legion partners, we are listening to that feedback. One of the 
biggest complaints that we think we have heard from our 
customers, if you will, is the Skills Translator. We are 
releasing a new Skills Translator in hopefully the next week or 
two, barring a crash of IT, if you will, that will enhance that 
Skills Translator such that it can be much more useful to our 
veterans.
    Dr. Wenstrup. Going back to the potential for these 
automated visits. I guess the question would be, how long did 
someone stay on the site? Because if it is like ten seconds, 
then that probably gives us the wrong number as far as usage.
    Mr. Coy. Well, I have that in my cheat sheet, Mr. Chairman, 
it's about six minutes. And actually the real number is five 
minutes and I think 53 seconds on average.
    Dr. Wenstrup. Okay. So how long has VEC been in existence?
    Mr. Coy. It was released and announced in April of last 
year.
    Dr. Wenstrup. Okay. So we have about 200,000 veterans 
transitioning from military service every year and there are, 
what, about 20,000 veterans that have profiles on the VEC at 
this time?
    Mr. Coy. Currently, it's about 23,000, and that has grown 
somewhat significantly in the last several months. Part of the 
issues that you heard from our SVA and Legion partners is that 
the adoption of the VEC, part of that issue is that we have 
revamped our TAP curriculum to include the VEC. Our partner at 
the Department of Labor has also revised their curriculum. We 
are also seeing some significant help in our Veterans Economic 
Communities Initiative, where we have individuals that are 
accountable for leveraging the VEC.
    So we hope and expect to see the VEC starting to gain in 
its use.
    Dr. Wenstrup. Well, I hope so too, obviously. And I just 
hope it is not based on little interest by our veterans or an 
access issue. So I will look forward to hearing how we do as we 
move forward.
    Mr. Coy. Yes, sir.
    Dr. Wenstrup. And with that, I yield back. And, Mr. Takano, 
you are now recognized for any questions you may have.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Coy or Mr. Worley, I understand that the updates to the 
GI Bill Comparison Tool will include valuable information to 
help students decide where to use their GI Bill benefits, 
including information about transfer rates, the different types 
of degrees or programs offered, and the importance of school 
accreditation. Can you just tell me briefly, how do community 
colleges compare to four-year non-profits or for-profits on a 
GI Bill Comparison Tool calculus?
    Mr. Coy. Thank you, that's a great question. And the GI 
Bill Comparison Tool is what we think to be one of our real 
success stories. It's only 18 or 20 months old now and we have 
seen almost universal acceptance of the tool. We have had three 
new releases of the tool and we have never seen any downtime 
with the tool. Probably the only criticism that we get from the 
tool is that there is not enough and we want more.
    We listen. We are going to do a significant release, as I 
indicated in my oral testimony, on or before Veterans Day, 
which will include outcome measures for all four-year and two-
year schools. Part of those outcome measures is in fact the 
transfer rate of students going from community colleges to 
four-year school.
    Rob, anything else you would like to add?
    General Worley. The only thing I would add is just to back 
up to the creation of the outcome measures and the tool itself. 
The fact that we have a transfer-out rate on the tool is a 
result of the vetting of these tools with the larger community, 
both other federal agencies, as well as the community college 
associations. And so there are both completion rates, 
graduation rates, as well as the transfer-out rates that are 
focused on the two-year institutions.
    Mr. Takano. Okay. Can you share with us your reasoning for 
including this new information about transfer rates, for 
example, on the GI Bill Comparison Tool? Was it based on 
problems you were seeing with certain types of schools?
    Mr. Coy. No, sir. The development of these outcome measures 
has taken several years and it has developed into a sort of 
seismic shift in the way schools are looking at leveraging the 
GI Bill and serving our veterans. The outcome measures, and 
there's five or six of them, as Mr. Worley indicated, was done 
in conjunction and a partnership with Education, Labor, and a 
host of other associations, where we could narrow down getting 
information about individual schools. And what we are doing is 
we are taking the results of those outcome measures, which 
currently are on the GI Bill Web site and available for anybody 
to look at, and we're including that and inculcating that into 
our GI Bill Comparison Tool.
    Mr. Takano. What information does the updated Comparison 
Tool provide students on whether their credits will transfer, 
say if they start at a community college, out of community 
college or a for-profit, or later transfer to a four-year, non-
profit college, does it provide information such as that?
    Mr. Coy. We currently provide some minimal information on 
that. We expect some releases next year where schools are going 
to be able to ensure that they fill in those blanks. Right now 
we take that information from the Department of Education's Web 
site and put it in there. Soon in a release, hopefully early 
next year, we are going to have that capability to have schools 
input some of that information.
    Mr. Takano. Well, information doesn't provide and help 
students understand school accreditation. For example, if 
students just see that a school is nationally accredited, they 
might not know what that means. How does the updated Comparison 
Tool explain aspects of accreditation that veterans need to 
know?
    Mr. Coy. There's two to three ways that we do that and we 
account for that. First on the tool itself, it reflects what 
the accreditation standards are for that particular school. 
There's also an info button for somebody to go what does 
accreditation mean, I don't get this. So we provide that 
information. Literally just yesterday, we released a three-and-
a-half minute that talks about know before you go and it talks 
about accreditation in there. We also announced yesterday our 
new choosing the right school and the new updated piece in 
there as well with accreditation.
    So we think we are getting the word out as much as we can 
on the issue of accreditation and we know that it is important 
to you as well, Congressman.
    Mr. Takano. Thank you so much. I yield back, Mr. Chairman.
    Dr. Wenstrup. Thank you.
    Mr. Bost, you are recognized for five minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    Mr. Coy, is the information on VEC a secure system, and is 
the system hosted on the VA's Web site or as a third-party 
system?
    Mr. Coy. It's a great question. First, yes, sir, it is 
secure. We have got no, absolutely no indication that there has 
been any intrusions. Currently, it is part of the VA's rollout 
this Veterans Day for Vets.gov. The server that it is hosted on 
is a VA-approved server, but it is in fact a server that we, if 
you will, lease from a company called SalesForce.
    Mr. Bost. Okay. So that is the reason why if you click on 
it, it shows up that it is hosted by a third-party site, 
correct? That would be the reason it does that?
    Mr. Coy. I don't know where it says anywhere on there that 
it is hosted by a third-party site, but I can go back and 
check.
    Mr. Bost. If you will check that?
    Mr. Coy. Absolutely.
    Mr. Bost. And my next question, and I asked this of the 
other panel, following some of the functional issues we have 
heard and everything like that, do you think maybe it was 
rolled out too quick?
    Mr. Coy. Well, it is a great question, I don't know that I 
really have a great answer for that. We certainly probably 
would have liked in 20/20 hindsight to have resolved several 
things before we rolled out, but we did roll it out. And one of 
the great attributes of the VEC is that it is maintained by our 
digital services team, the team that I mentioned in my oral 
testimony, is a team that right now is about 20 or 22 folks, 
they want to grow to about 75 folks. And what this team does is 
it brings in talent from the outside, from Google, Amazon, 
LinkedIn. They are one or two-year appointments. So it is sort 
of like the Peace Corps, they come in and they do their thing 
for a couple years and then they leave, and it is a rotating 
basis.
    And what this allows us to do is rather than this is 
Release 1, this is Release 2, this is Release 3, what it allows 
us to do is be very agile and very mobile, be able to change 
things pretty much on the fly.
    As I indicated, one of the big things that we are going to 
change on the tool coming out in the next week or so is an 
enhanced Skills Translator, which we heard loud and clear was 
one of the bigger complaints.
    Mr. Bost. Just one quick follow-up question on what I was 
asking before, because right now with the concerns we have had 
with every time we turn around someplace somewhere is broken 
into to get people's information. Are we sure that the people 
that sign up, all the veterans are protected and their personal 
information is protected through this system?
    Mr. Coy. Absolutely, sir. It is one of our highest 
priorities in this. First off, there's no PII information on 
the VEC, and it is one of the reasons why we have sort of a 
separate systems, because nobody can go to the VEC and then 
intrude their e-benefits account. We built the VEC such that if 
you want to save your resume and your profile, you have to go 
through the DS login, but you are not in, if you will, the e-
benefits such, because e-benefits has a lot of information that 
is in there.
    So I am pretty confident. I don't think in the world of IT 
anybody can say 100-percent confident, but we are pretty sure. 
We have not seen any intrusions as of yet.
    Mr. Bost. Okay. Have you had any input at all from the DoD 
or DOL with any issues that they have with the system?
    Mr. Coy. We developed the VEC in concert with DOL and DoD, 
they were there with us every step of the way.
    There is a bit of history to this. There was a task force 
that was developed on veteran employment, I was on that task 
force of senior leaders, and we looked at a number of different 
sites. We had a site, it was called VetSuccess, so we had the 
bones of a site. The decision was made that VA would take the 
lead on developing the VEC, and so we charged off and did that.
    Mr. Bost. Okay, thank you.
    Then I yield back, Mr. Chairman.
    Dr. Wenstrup. Thank you.
    Ms. Rice, you are recognized for five minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    So, Mr. Coy, if I could just ask about a couple of the 
systems. I am curious with the GI Bill Feedback System that 
allows veterans obviously to--their dependents to talk about 
their experience. And in here it said that there were 4500 
complaints submitted, 3500 of them were resolved. Can you just 
talk about how that is working? Because that seems to me to be, 
you know, any business, if you are going to be successful, you 
want to know do you have satisfied customers.
    Mr. Coy. Absolutely. It is one of our great sources of 
pride is the ability for a student to lodge a complaint against 
a school. As I indicated in my oral testimony, what happens is, 
is in many cases it's a communication problem, it is a problem 
that is between the school and the student, and we hope that 
that gets resolved.
    But what happens is, is the front end of this tool is 
automated, the back end is rather ugly, because it is an 
entirely manual process. We have someone who literally looks at 
every single complaint and if in fact the complaint is such 
that it needs to go to the school, the complaint is sent to the 
school. The school is asked to provide a response. Oftentimes, 
the school reaches out to the student to talk about this 
particular issue. There are times where we initiate a risk-
based compliance review based upon the information, and some of 
those complaints are not really valid for the tool.
    Most of the complaints that we want to have or the tool is 
set up for issues and concerns about principles of excellence, 
you know, illegal or improper recruiting and marketing and 
those kinds of things. But there are still folks that also, and 
Rob hates it when I say this, but there are cheeseburger 
complaints, meaning, you know, the food in the cafeteria is 
really bad and you guys ought to do something about that. And 
so we can't do anything with that.
    But it is a real success story, because what we do is when 
we get--and I have seen a number of these responses from the 
schools, sometimes they are four or five-page letters. They 
take these things very, very seriously. As a result of that, 
some of these complaints are also logged on the Consumer 
Sentinel database and it is available for it to be reviewed by 
law enforcement agency.
    The other thing that we have done to try and be incredibly 
transparent is we put the complaint system responses on the GI 
Bill Comparison Tool, so veterans or students can see how many 
complaints that school has gotten and what are the nature of 
those complaints.
    Ms. Rice. Two other aspects of this system that I would ask 
you to talk about. The first one is the CareerScope, the 
Military Skills Translator. They seem like really, really good 
aspects of the system, but I wonder, can you just tell briefly, 
obviously talk about the pluses, minuses, and do you have 
enough people accessing it? Because it seems to me like that is 
the kind of directed help that veterans need to not spin their 
wheels in trying to find either educational or employment 
opportunities.
    Mr. Coy. The CareerScope Tool we did after a significant 
amount of market research, and what we found is we had a tool 
in our own backyard. The Vocational Rehabilitation and 
Education--or Employment folks had been using CareerScope for 
their clients for some time now, so we leveraged that and used 
that CareerScope. And it is an interesting tool, because it 
helps veterans measure their interests and aptitudes, what I 
want to do when I get out or what should I do now that I am 
out.
    In terms of the Skills Translator, that is on the VEC, 
which is a sort of different tool, but the Skills Translator, 
we are in the process of updating and, barring any IT concerns 
or issues, we expect to have that new and improved and very 
well thought-out Skills Translator before Veterans Day of this 
year.
    Ms. Rice. Thank you.
    I yield back, Mr. Chairman.
    Dr. Wenstrup. Mr. Costello, you are now recognized for five 
minutes.
    Mr. Costello. Thank you.
    And picking up where Ms. Rice left off with that question 
and your answer, the Enhanced Skills Translator you are going 
to make more useful. Can you just describe how it will be more 
useful?
    Mr. Coy. The best I can do probably is give you a good 
example. Eleven Bravo is an occupational code. The current 
Skills Translator says basically uses their hands and can read 
English, I think it is something like that. The new Skills 
Translator takes the research that for example LinkedIn has 
done and used it in a much more reliable and commercial way. So 
we think it shows great promise, because one of the bigger 
problems that many veterans have as they are translating out 
is, so what are my skills and attributes and what kind of 
things can I expect to see.
    And so we think it is going to be a great enhancement.
    Mr. Costello. Do you have a lot of industry participation 
in that?
    Mr. Coy. The principal partner we have had in that is 
LinkedIn, and they have done a lot of market research and had a 
lot of success in that.
    Mr. Costello. But you are ultimately talking about 
identifying what skills--excuse me--you are ultimately looking 
for industry to identify what skills they need, so that when 
veterans go through the Skills Translator process it is leading 
them to the industries where there is employment opportunity; 
is that correct?
    Mr. Coy. Yes. LinkedIn's market research indicates the sort 
of key words that a lot of industry partners want to see on 
those particular resumes. It is just a piece of the pie though, 
because just because you did something in the service doesn't 
mean you necessarily want to do it in your civilian life. It is 
why CareerScope is important, it measures your interests and 
aptitudes. It is why the Skills Translator is important, 
because it sort of tells you what industry thinks of your 
skills. And so it goes both ways.
    Mr. Costello. I futuristically here, and I am the first 
person to admit that I am not a tech, you mentioned about the 
teams that you have and you have folks from Google and Amazon 
that come for a year or two, VEC Employees, I don't even know 
what this is, Agile Methodology and Managing the Software 
Development's Life Cycle, that sounds pretty good. I intuit----
    Mr. Coy. I thought that sounded pretty good too.
    Mr. Costello. There are actually a couple sentences before 
that that sound pretty good. One of the frustrations I know I 
have, I think other members, I don't want to speak for them, 
share it, is when you look at some of the technology that the 
VA has used in other areas, it is almost like dead technology 
that is just sort of like limping along, whereas it appears as 
though with this, with VEC, you have done it in a way that you 
are constantly going to be able to update it and refine it; is 
that correct?
    Mr. Coy. Yes, sir. It is one of the really neat and fun 
things is that when you work with this digital service folks, 
they are not--my colleague Steve is going to hit me, but they 
are not necessarily your stereotypical government employees. 
These are folks straight in from Google and Amazon.
    Mr. Costello. Right.
    Mr. Coy. And they are in there to make a difference. And I 
have been in rooms with them where we have had the Comparison 
Tool up on the screen and we are talking about moving things 
around or doing this and what if, and every single time it is, 
absolutely, we can do that. And so it becomes incredibly 
exciting, because they can do it literally just like that right 
there on the spot and change the tool.
    Mr. Costello. Mr. Hubbard in his testimony laid out some 
things that should be revised, as well as some questions that I 
think very logically should be addressed. If you had the 
opportunity to look at his testimony and where are you in the 
process--how often are you updating VEC? It seems to me as 
though you have sort of another VEC 2.0 with what you are going 
to roll out here with the Enhanced Skills Facilitator, but how 
often are you revisiting and working out the kinks and making 
it better?
    Mr. Coy. The short answer is all day, every day. But the 
longer answer is, is right now VA is going to roll out 
Vets.gov, and it's a new veterans-centric Web site. The 
Comparison Tool and the VEC are two of the superstars that's 
going to be initiated with that. So they are in the process 
right now of making the entire VEC more user friendly, just 
like the Comparison Tool. It is going to have a different look 
and feel, it is going to have all of the same information, but 
a different look and feel and a better user experience.
    Mr. Costello. Do you think you are headed for much better 
results in terms of, you know, taking that 23,000 and really 
increasing the number of users, as well as the user experience? 
I mean, I hope that is, we all hope that is where we are 
headed. Do you feel that?
    Mr. Coy. I not only feel it, I believe it. I think we are 
going to start seeing some significant changes in the way we do 
business and some significant user-friendly sort of changes to 
the VEC as well.
    Mr. Costello. Well, that is good to hear. Thank you very 
much.
    Mr. Coy. Yes, sir.
    Dr. Wenstrup. Ms. Radewagen, you are now recognized for 
five minutes.
    Ms. Radewagen. Thank you, Mr. Chairman.
    Mr. Coy, how many other veteran job boards like VA For 
Vets, H2H, VetCentral, or others were replaced by the then new 
and untested VEC? Wouldn't it have been easier to just use an 
existing system instead of creating something not only doesn't 
seem to work, but no one appears to like?
    Mr. Coy. I think it would have probably been easier to let 
some other system exist and not take on that challenge most 
certainly. We took a look, our consortium--this was not VA, 
this was our consortium of our Labor partners, our Defense 
partners, and the other partners that were on that task force 
that I mentioned. And so the decision was made in a consensus 
way for some of these other sites, many of which were very, 
very redundant.
    And so those decisions were not made by VA, they were made 
by the individual services and whoever was in charge of those 
particular systems.
    As I mentioned, we have a site, we VA, it was a VRE site 
called VetSuccess.gov, and we saw the bones of that and we 
leveraged that into what is now the VEC.
    Ms. Radewagen. Thank you.
    I have been told that certain VA contractors are required 
to log in to VEC each day as a way to increase the number of 
page views; is this true?
    Mr. Coy. I have no evidence whatsoever until someone 
recently mentioned that to me. I asked my IT folks to look into 
that and there is no evidence of that. But if there is a source 
and somebody could help me understand better, I would be happy 
to look into it.
    Ms. Radewagen. And actually we have been told that VEC does 
not work on some Internet Web browsers and that on certain DoD 
bases they are unable to access the VEC during TAP due to this 
and other connectivity issues. Can you please comment on this?
    Mr. Coy. We did have some issues with connectivity and some 
of the DoD installations. We think we have turned that corner, 
but there's still probably some sites that we would have a 
challenge with.
    Ms. Radewagen. Thank you, Mr. Chairman. I yield back.
    Dr. Wenstrup. Well, thank you.
    I just have one. I want to say, good luck on Veterans Day 
with the rollout of the one site. Yeah, keep your fingers 
crossed, right? And I hope it is successful and I do wish the 
VA well on that.
    One of the things that was talked about a little bit today 
and there was reports of some scam artists getting to some of 
the people that had signed up for the VEC, and trying to get 
money out of them. Did you want to comment on that?
    Mr. Coy. It was an interesting few days, because there was 
a scam that was perpetuated. The scam basically notified the 
veteran that says, we found your name on the Veterans' 
Employment portal--not Veterans' Employment Center, but 
portal--and we are going to send you a check for a thousand 
dollars, because we want to hire you. And so we want you to 
deposit that check as soon as you get it and go out and buy a 
computer for less than a thousand dollars, and then we want you 
to take what is left over of that thousand dollars and send it 
back to us in the way of a money order. And so anybody that not 
knows these things, they did. And of course when you deposit 
the check and you go out that afternoon and buy a computer, but 
then ten days later you find out the check has bounced, you 
have already sent a money order back to that company, you are 
out that difference of money.
    We did a significant marketing campaign to get that 
information out to as many veterans as possible, sort of under 
the rubric of, if it's too good to be true, it probably is too 
good to be true. But there are a lot of those kinds of scams 
that are out there all the time and we try and stay ahead of 
them.
    Dr. Wenstrup. Well, thank you very much for doing that and 
for responding to it. These things can happen to anyone at any 
time.
    If you ever feel that you need our backing to suggest a 
study, and I don't mean on a punitive way towards anything you 
are doing, but in a positive way to make sure we are protecting 
our veterans, I would be glad to stand with you on that.
    Mr. Coy. Yes, sir. Thank you.
    Dr. Wenstrup. Thank you. And I thank the witnesses for your 
testimony and for answering our questions. I think it is clear 
that we need to assure that the IT systems need to have the 
attention from VA senior leaders and that they need to be a 
priority for the department in general.
    I do appreciate the valuable discussion from all of our 
witnesses here today on how to improve these systems to help 
our veterans reach maximum economic success, and I look forward 
to working together to do that.
    And I now ask unanimous consent that a statement from the 
Veterans of Foreign Wars be submitted into the hearing record.
    [No response.]
    Dr. Wenstrup. Hearing no objection, so ordered.
    Dr. Wenstrup. Finally, I ask that all members have five 
legislative days to revise and extend their remarks, and 
include any extraneous material in the record of today's 
hearing.
    [No response.]
    Dr. Wenstrup. Hearing no objection, so ordered.
    And if there is nothing further, this hearing is adjourned.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
